 Department of Health and Human Services
                   OFFICE OF
              INSPECTOR GENERAL




REVIEW OF MEDICARE CONTRACTOR
     INFORMATION SECURITY
   PROGRAM EVALUATIONS FOR
       FISCAL YEAR 2010

    Inquiries about this report may be addressed to the Office of Public Affairs at
                             Public.Affairs@oig.hhs.gov.




                                                  Daniel R. Levinson
                                                   Inspector General

                                                     January 2013
                                                     A-18-12-30100
                        Office of Inspector General
                                         https://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health and Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                         Notices


    THIS REPORT IS AVAILABLE TO THE PUBLIC
              at https://oig.hhs.gov

 Section 8L of the Inspector General Act, 5 U.S.C. App., requires
 that OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

 The designation of financial or management practices as
 questionable, a recommendation for the disallowance of costs
 incurred or claimed, and any other conclusions and
 recommendations in this report represent the findings and
 opinions of OAS. Authorized officials of the HHS operating
 divisions will make final determination on these matters.
                                  EXECUTIVE SUMMARY

BACKGROUND

The Medicare Prescription Drug, Improvement, and Modernization Act of 2003 added
information security requirements for Medicare administrative contractors (MAC), fiscal
intermediaries, and carriers to the Social Security Act (the Act). These contractors process and
pay Medicare fee-for-service claims. Each Medicare contractor must have its information
security program evaluated annually by an independent entity, and these evaluations must
address the eight major requirements enumerated in the Federal Information Security
Management Act of 2002 (FISMA). To comply with this provision, the Centers for Medicare
& Medicaid Services (CMS) contracted with PricewaterhouseCoopers (PwC) to evaluate
information security programs at the MACs, fiscal intermediaries, and carriers using a set of
agreed-upon procedures.

The Act also requires evaluations of the information security controls for a subset of systems but
does not specify the criteria for these evaluations. To satisfy this requirement, CMS expanded
the scope of its evaluations in fiscal year (FY) 2010 to test segments of the Medicare claims
processing systems hosted at the Medicare data centers, which support each of the fiscal
intermediaries, carriers, and MACs. CMS also contracted with iFed, LLC (iFed), to perform
technical assessments at the two CMS enterprise data centers that process Medicare claims using
an information security assessment methodology.

The Inspector General, Department of Health and Human Services, must submit to Congress
annual reports on the results of these evaluations, to include assessments of their scope and
sufficiency. This report fulfills that responsibility for FY 2010.

OBJECTIVES

Our objectives were to (1) assess the scope and sufficiency of Medicare contractor information
security program evaluations and CMS enterprise data center technical assessments and
(2) report the results of those evaluations and assessments.

SUMMARY OF RESULTS

PwC’s evaluations of the contractor information security programs were adequate in scope and
were sufficient. PwC reported a total of 303 gaps at 21 Medicare contractors. iFed’s assessment
for one of the two enterprise data centers was adequate in scope and was sufficient, but for the
other center, we could not determine whether the scope and sufficiency of the review were
adequate. iFed reported a total of 51 gaps at the 2 enterprise data centers.

Assessment of Scope and Sufficiency

PwC’s evaluations of the contractor information security programs adequately encompassed in
scope and sufficiency the eight FISMA requirements referenced in the Act.



                                                i
iFed’s evaluation of the information security controls at one of the two enterprise data centers
tested was adequate in scope and was sufficient. However, for the other enterprise data center,
we could not determine whether the scope and sufficiency of the review were adequate because
of issues with the working papers, such as lack of evidence that all testing procedures had been
completed and that all identified weaknesses were adequately supported.

Results of Evaluations

The results of the contractor information security program evaluations and enterprise data center
technical assessments are presented in terms of gaps, which are defined as the differences
between FISMA or CMS core security requirements and the contractors’ implementation of
them.

Results of Contractor Information Security Program Evaluations

In the 21 PwC evaluation reports for FY 2010, which covered all MACs, fiscal intermediaries,
and carriers, PwC identified a total of 303 gaps, which it consolidated into 90 findings. The
contractors are responsible for developing a corrective action plan for each gap or finding. The
number of gaps per contractor ranged from 6 to 22 and averaged 14. The most gaps occurred in
the following FISMA control areas: policies and procedures to reduce risk (74 gaps at 21
contractors), testing of information security controls (62 gaps at 21 contractors), security
program and system security plans (49 gaps at 21 contractors), incident response (39 gaps at 19
contractors), and continuity of operations planning (35 gaps at 18 contractors). There was an
increase in the number of gaps in FY 2010, some of which was due to the expansion of testing
that PwC performed at each contractor. CMS is responsible for tracking each finding until it is
remediated.

Results of Enterprise Data Center Technical Assessments

The 2 Medicare enterprise data center technical assessment reports prepared by iFed identified a
total of 51 gaps (10 gaps at 1 data center, 41 at the other data center). Most of the gaps occurred
in the following security control categories: access control (26 gaps at 2 data centers), system
and communications protection (10 gaps at 2 data centers), and identification and authentication
(9 gaps at 1 data center).

Of the 51 gaps iFed identified at the 2 enterprise data centers, 27 gaps were resolved and closed
during or after iFed’s onsite visits. Hence, a total of 24 gaps at data centers required corrective
action in FY 2010. The contractors are responsible for developing a corrective action plan for
each gap, which CMS tracks until the gap is remediated.

RECOMMENDATION

We recommend that CMS ensure that its enterprise data center technical assessments are
adequately supported.




                                                 ii
CENTERS FOR MEDICARE & MEDICAID SERVICES COMMENTS

In written comments to our draft report, CMS concurred with our recommendation. CMS also
stated that it would take the appropriate actions to address the identified issues. We have
included CMS’s comments in their entirety as Appendix D.




                                             iii
                                                  TABLE OF CONTENTS

                                                                                                                             Page

INTRODUCTION............................................................................................................. 1

          BACKGROUND .....................................................................................................1
              The Medicare Program ................................................................................. 1
              Medicare Prescription Drug, Improvement, and Modernization
               Act of 2003 ................................................................................................ 1
              Centers for Medicare & Medicaid Services Evaluation Process
               for Fiscal Year 2010................................................................................... 2

          OBJECTIVES, SCOPE, AND METHODOLOGY .................................................3
              Objectives ..................................................................................................... 3
              Scope ............................................................................................................. 3
              Methodology ................................................................................................. 3

RESULTS OF REVIEW .................................................................................................. 4

          ASSESSMENT OF SCOPE AND SUFFICIENCY ................................................4

          RESULTS OF MEDICARE CONTRACTOR INFORMATION SECURITY
          PROGRAM EVALUATIONS.................................................................................4
              Policies and Procedures To Reduce Risk...................................................... 6
              Testing of Information Security Controls ..................................................... 6
              Security Program and System Security Plans ............................................... 7
              Incident Detection, Reporting, and Response ............................................... 8
              Continuity of Operations Planning ............................................................... 8

          RESULTS OF ENTERPRISE DATA CENTER TECHNICAL
          ASSESSMENTS ......................................................................................................9
              Access Control ............................................................................................ 10
              System and Comunications Protection ....................................................... 11
              Identification and Authentication ............................................................... 11

          CONCLUSION ......................................................................................................12

          RECOMMENDATION .........................................................................................12

          CENTERS FOR MEDICARE & MEDICAID SERVICES COMMENTS ..........12

APPENDIXES

        A: LIST OF GAPS BY FEDERAL INFORMATION SECURITY MANAGEMENT ACT
           OF 2002 CONTROL AREA AND MEDICARE CONTRACTOR


                                                                     iv
B: RESULTS OF MEDICARE CONTRACTOR EVALUATIONS FOR FEDERAL
   INFORMATION SECURITY MANAGEMENT ACT OF 2002 CONTROL AREAS
   WITH THE GREATEST NUMBER OF GAPS

C: LIST OF GAPS BY NATIONAL INSTITUTE OF STANDARDS AND
   TECHNOLOGY SECURITY CONTROL AREA AND ENTERPRISE DATA
   CENTER

D: CENTERS FOR MEDICARE & MEDICAID SERVICES COMMENTS




                            v
                                            INTRODUCTION

BACKGROUND

The Medicare Program

The Centers for Medicare & Medicaid Services (CMS) administers the Medicare program.
Medicare is a health insurance program for people age 65 or older, people under age 65 with
certain disabilities, and people of all ages with end-stage renal disease. In fiscal year (FY) 2010,
Medicare paid more than $447 billion on behalf of more than 47 million Medicare beneficiaries.
CMS contracts with Medicare Administrative Contractors (MAC), fiscal intermediaries, and
carriers to administer Medicare benefits paid on a fee-for-service basis. CMS uses enterprise
data centers to process all Medicare fee-for-service claims.

In FY 2010, 11 distinct entities served as fiscal intermediaries, carriers, and Part A/B MACs.
Two external entities operated enterprise data centers to process all Medicare fee-for-service
claims. Thus, 13 distinct entities processed and paid Medicare fee-for-service claims.

Medicare Prescription Drug, Improvement, and Modernization Act of 2003

The Medicare Prescription Drug, Improvement, and Modernization Act of 2003 (MMA) added
information security requirements for MACs, fiscal intermediaries, and carriers to section 1874A
of the Social Security Act (the Act). 1 (See 42 U.S.C. § 1395kk-1.) Pursuant to section
1874A(e)(2)(A) of the Act, each MAC, fiscal intermediary, and carrier must have its information
security program evaluated annually by an independent entity. This section requires that these
evaluations address the eight major requirements enumerated in the Federal Information Security
Management Act of 2002 (FISMA). (See 44 U.S.C. § 3544(b).) These requirements, referred to
as “FISMA control areas” in this report, are:

        1. periodic risk assessments;

        2. policies and procedures to reduce risk;

        3. security program and system security plans;

        4. security awareness training;

        5. testing of information security controls;

        6. remedial actions;




1
 The MMA contracting reform provisions added to section 1874A of the Act replace existing fiscal intermediaries
and carriers with MACs, which are competitively selected. Until all MACs are in place, the requirements of
section 1874A also apply to fiscal intermediaries and carriers.

                                                       1
       7. incident detection, reporting, and response; and

       8. continuity of operations planning.

Section 1874A(e)(2)(A)(ii) of the Act requires that the effectiveness of information security
controls be tested for an appropriate subset of Medicare contractors’ information systems.
However, this section does not specify the criteria for evaluating these security controls.

Additionally, section 1874A(e)(2)(C)(ii) of the Act requires the Inspector General of the
Department of Health and Human Services to submit to Congress annual reports on the results of
such evaluations, including assessments of their scope and sufficiency. This report fulfills that
responsibility for FY 2010.

Centers for Medicare & Medicaid Services Evaluation Process for Fiscal Year 2010

CMS developed agreed-upon procedures (AUP) for the program evaluation based on the
requirements of section 1874A(e)(1) of the Act, FISMA, information security policy and
guidance from the Office of Management and Budget and the National Institute of Standards and
Technology (NIST), and the Government Accountability Office’s (GAO) Federal Information
Systems Controls Audit Manual (FISCAM). In FY 2010, 11 distinct entities served as fiscal
intermediaries, carriers, and MACs. The independent auditors, PricewaterhouseCoopers (PwC),
under contract with CMS, used the AUPs to evaluate the information security programs at the 11
entities. Many of the entities had multiple contracts with CMS to fulfill their responsibilities as
Medicare fiscal intermediaries, carriers, A/B MACs, and Durable Medical Equipment MACs.
Testing was performed for each of the contracts. As a result, PwC performed evaluations and
issued separate reports for 21 fiscal intermediaries, carriers, and MACs.

To comply with the section 1874A(e)(2)(A)(ii) requirement to test the effectiveness of
information security controls for an appropriate subset of contractors’ information systems, CMS
expanded the scope of its AUP evaluations in FY 2010 to test segments of the Medicare claims
processing systems hosted at the Medicare data centers, which support each of the fiscal
intermediaries, carriers, and MACs. Medicare data centers are used for “front-end”
preprocessing of claims received from providers and “back-end” issuing of payments to
providers after claims have been adjudicated. PwC performed additional testing to eliminate the
need to contract with another entity to perform the assessments that had previously been
performed at the fiscal intermediaries, carriers, and MAC data centers. In addition, CMS
contracted with iFed, LLC (iFed), to plan, develop, and implement a comprehensive program to
perform testing of information security controls at the two CMS enterprise data centers, which
are used to process and adjudicate all Medicare claims. iFed performed the assessments and
issued separate reports for each of the two enterprise data centers.

The results of the contractor information security program evaluations and enterprise data center
technical assessments are presented in terms of gaps, which are defined as the differences
between FISMA or CMS core security requirements and the contractors’ implementation of
them. In some instances, PwC combined multiple gaps into one finding. PwC assigned impact
levels to each of the findings, and iFed assigned risk levels to each of the gaps. The contractors

                                                 2
are responsible for developing a corrective action plan for each gap or finding, which is tracked
by CMS.

OBJECTIVES, SCOPE, AND METHODOLOGY

Objectives

Our objectives were to (1) assess the scope and sufficiency of Medicare contractor information
security program evaluations and data center technical assessments and (2) report the results of
those evaluations and assessments.

Scope

We evaluated the FY 2010 results of the independent evaluations and technical assessments of
Medicare contractors’ information security programs. Our review did not include an evaluation
of internal controls. We performed our reviews of PwC and iFed working papers at CMS
headquarters in Baltimore, Maryland, and at Office of Inspector General regional offices.

Methodology

To accomplish our objectives, we performed the following steps:

        •    To assess the scope of the evaluations of contractor information security programs,
             we determined whether the AUPs included the eight FISMA control requirements
             enumerated in section 1874A(e)(1) of the Act.

        •    To assess the sufficiency of the evaluations of contractor information security
             programs, we reviewed PwC working papers supporting the evaluation reports to
             determine whether PwC sufficiently addressed all areas required by the AUPs. We
             also determined whether all security-related weaknesses were included in the PwC
             reports by comparing supporting documentation with the reports and whether all
             findings in the PwC reports were adequately supported by comparing the reports with
             the PwC working papers.

        •    To assess the scope of the enterprise data center technical assessments, we reviewed
             the contract and statement of work between CMS and iFed and verified that iFed
             performed the work that CMS had specified.

        •    To assess the sufficiency of the enterprise data center technical assessments, we
             reviewed working papers to verify that iFed completed all test procedures, reported
             all medium- and high-risk gaps, and adequately supported all reported results with
             sufficient and appropriate evidence.

        •    To report on the results of the evaluations and technical assessments, we aggregated
             the results contained in the individual contractor evaluation reports and data center
             technical assessment reports. For the PwC evaluations, we used the number of gaps

                                                  3
           listed in the individual contractor evaluation reports to aggregate the results. For the
           iFed technical assessments, we used the gaps listed in the individual technical
           assessment reports to aggregate the results.

We conducted this performance audit in accordance with generally accepted government
auditing standards, except that we did not obtain comments from PwC or iFed. Those standards
require that we plan and perform the audit to obtain sufficient, appropriate evidence to provide a
reasonable basis for our findings and conclusions based on our audit objectives. We believe that
the evidence obtained provides a reasonable basis for our findings and conclusions based on our
audit objectives.

                                    RESULTS OF REVIEW

PwC’s evaluations of the contractor information security programs were adequate in scope and
were sufficient. PwC reported a total of 303 gaps, which resulted in 168 findings at 21 Medicare
contractors. For the 11 entities that encompass the 21 contracts, there were a total of 166 gaps
resulting in 90 findings. iFed reported a total of 51 gaps at the 2 enterprise data centers. One of
the two enterprise data center technical assessments performed by iFed was adequate in scope
and was sufficient. However, for the other enterprise data center, we could not determine
whether the scope and sufficiency of the review were adequate because of problems with the
working papers, such as a lack of evidence that all testing procedures had been completed or that
identified weaknesses were adequately supported.

ASSESSMENT OF SCOPE AND SUFFICIENCY

PwC’s evaluations of the contractor information security programs adequately encompassed in
scope and sufficiency the eight FISMA requirements referenced in section 1874A(e)(1) of the
Act.

The scope of the work and sufficiency of documentation for all reported gaps were adequate for
the one of the two enterprise data center technical assessments. CMS’s contract with iFed
provided for the planning, development, and implementation of a comprehensive program to
perform testing of information security controls at enterprise data centers. However, the test plan
documentation supplied by iFed for one enterprise data center did not contain sufficient evidence
that all of the testing procedures had been performed. Additionally, we were unable to trace all
gaps presented in iFed’s report to supporting documentation in the working papers. CMS did not
ensure that all iFed working papers were complete for all tests and that all gaps were adequately
supported in the working papers.

RESULTS OF MEDICARE CONTRACTOR INFORMATION SECURITY PROGRAM
EVALUATIONS

As shown in Table 1, the 21 evaluation reports identified a total of 303 gaps. The number of
gaps per contractor ranged from 6 to 22 and averaged 14. See Appendix A for a list of gaps per
control area by contractor.



                                                 4
                         Table 1: Range of Medicare Contractor Gaps
                                                Number of Contractors With
                 Number of        Total      0    1-5      6–10    11-15   16+
         FY      Contractors      Gaps      Gaps Gap(s) Gaps       Gaps    Gaps
        2010         21            303       0     0         2      10      9

The total number of gaps reported increased from 94 in FY 2009 to 303 in FY 2010. Some of
this increase was due to PwC’s expanded testing in FY 2010. PwC expanded its testing to
include the Medicare claims processing systems hosted at the Medicare data centers. New
testing included review of network management controls and a network attack and penetration
test at the Medicare data centers.

Table 2 summarizes the gaps found in each FISMA control area in FY 2010.

Table 2: Gaps by Federal Information Security Management Act Control Area in FY 2010
                                    Impact Levels
                                      of FISMA                             No. of Contractors
               FISMA                Control Area         No. of Gaps       With One or More
            Control Area            Subcategories         Identified             Gap(s)
     Policies and procedures to
                                          High                 74                   21
     reduce risk
     Testing of information
                                          High                 62                   21
     security controls
     Security program and
                                     High/Medium               49                   21
     system security plans
     Incident detection,
                                          High                 39                   19
     reporting, and response
     Continuity of operations
                                     High/Medium               35                   18
     planning
     Security awareness
                                        Medium                 28                   15
     training
     Periodic risk assessments       High/Medium                9                    9
     Remedial actions                    High                   7                    3
       Total                                                  303

The Medicare contractor information security program evaluations covered several subcategories
within each FISMA control area. The “impact level” shown in Table 2 refers to the possible
level of adverse impact that could result from successful exploitation of gaps in any of the
subcategories depending on the organization’s mission and criticality and the sensitivity of the
systems and data involved. The actual ratings assigned to the subcategories were all high or
medium impact and were PwC’s assessments. Individual findings were assigned an overall risk
level on a subjective basis by PwC after considering the impact and likelihood of occurrence.
However, as stated in NIST Special Publication (SP) 800-115, Technical Guide to Information
Security Testing and Assessment, section 4.3, it is difficult to identify the risk level of individual
vulnerabilities because they rarely exist in isolation.

                                                  5
The following sections discuss the five FISMA control areas containing the most gaps. See
Appendix B for descriptions of each subcategory tested for the five control areas.

Policies and Procedures To Reduce Risk

According to NIST SP 800-53, Recommended Security Controls for Federal Information
Systems and Organizations:

         …the management of risk is a key element in the organization’s information
         security program and provides an effective framework for selecting the
         appropriate security controls for an information system—the security controls
         necessary to protect individuals and the operations and assets of the organization.
         The risk-based approach to security control selection and specification considers
         effectiveness, efficiency, and constraints taking into account applicable federal
         laws, Executive orders, directives, policies, regulations, standards, or guidelines.

All 21 Medicare contractors had from 1 to 4 gaps each. In total, PwC identified 74 gaps in this
area. Following are examples of gaps in policies and procedures to reduce risk:

    •    Security policies and procedures did not address or enforce platform security
         configuration 2 or patch management 3 standards.

    •    Patch management procedures did not contain a timetable or time line for putting patches
         or service packs in place based on the severity of the risk associated with the
         vulnerability to be patched.

    •    Procedures for applying mainframe updates did not include steps to identify security
         patches for the mainframe or to apply them within the time line required by CMS.

Ineffective policies and procedures to reduce risk could jeopardize an organization’s mission,
information, and information technology assets. Without adequate configuration standards and
the latest security patches, systems may be susceptible to exploitation that could lead to
unauthorized disclosure of data, data modification, or the unavailability of data.

Testing of Information Security Controls

According to NIST SP 800-53, Recommended Security Controls for Federal Information
Systems and Organizations, Control CA-2, the effectiveness of information security policies,
procedures, practices, and controls should be tested and evaluated at least annually.
NIST SP 800-115, section 2.3, notes that security testing enables organizations to measure levels
of compliance in areas such as patch management, password policy, and configuration

2
 A security configuration is a set of security controls and settings established for an information system that meets
operational requirements and helps systems operate correctly and securely.
3
 Patch management is the process of identifying, reporting, and effectively remediating information system flaws in
an operational system.

                                                          6
management. According to GAO’s FISCAM, section 3.3, changes to an application should be
tested and approved before being put into production.

All 21 Medicare contractors had from 1 to 5 gaps each related to testing of information security
controls. In total, 62 gaps were identified in this area.

Following are examples of gaps in testing of information security controls:

   •   The contractor’s system software change-control procedures did not reflect the process used
       to test the different platforms.

   •   The contractor’s change-control procedures did not include the variation in the process used
       for firewall changes based on the determined risk level of the change to the firewall.

   •   Security weaknesses were identified as part of the internal network penetration testing.

Without a comprehensive program for periodically testing and monitoring of information
security controls, management has no assurance that appropriate safeguards are in place to
mitigate identified risks.

Security Program and System Security Plans

NIST SP 800-100, Information Security Handbook: A Guide for Managers, section 2.2.5, states
that an agency should ensure its information security policy is sufficiently current to
accommodate the information security environment and the agency mission and operational
requirements. NIST SP 800-53, Control PS-3, requires organizations to screen employees before
granting access to information and information systems. The Executive Summary of NIST SP
800-18, Guide for Developing Security Plans for Federal Information Systems, states that
“system security plan[s] should provide an overview of a system’s security requirements and
describe the controls in place or planned for meeting those requirements.”

All 21 Medicare contractors had from 1 to 4 gaps each. In total, PwC identified 49 gaps in this
area.

Following are examples of gaps in security program and system security plans:

   •   The contractor’s internal and external assessments, including audits, controls testing,
       security reviews, and penetration and vulnerability assessments, were not completed.

   •   The contractor’s procedures for background investigations did not require completion of
       background checks before hiring employees and granting them access to systems.

   •   The contractor’s system security plan did not identify a complete list of platforms that
       supports Medicare operations.



                                                 7
If information security program requirements are not implemented and enforced, management
has no assurance that established system security controls will be effective in protecting valuable
assets, such as information, hardware, software, systems, and related technology assets that
support the organization’s critical missions.

Incident Detection, Reporting, and Response

The Executive Summary of NIST SP 800-61, Computer Security Incident Handling Guide, states
that:

       …computer security incident response has become an important component of
       information technology programs. Security-related threats have become not only
       more numerous and diverse but also more damaging and disruptive. New types of
       security-related incidents emerge frequently. Preventative activities based on the
       results of risk assessments can lower the number of incidents, but not all incidents
       can be prevented. An incident response capability is therefore necessary for
       rapidly detecting incidents, minimizing loss and destruction, mitigating any
       weaknesses that were exploited, and restoring computing services.

Two of the twenty-one Medicare contractors had no identified gaps in incident response, while
the remaining 19 had 1 to 3 gaps each. In total, PwC identified 39 gaps in this area. Following
are examples of gaps in incident response:

   •   The process for maintaining and reviewing system logs was not consistent with CMS
       requirements.

   •   System logs were not retained for the amount of time required by CMS and followup of
       suspicious activities was not performed.

   •   Reportable incidents were not reported within the required timeframe in accordance with
       CMS requirements.

Keeping the number of incidents reasonably low is very important to protect the business
processes of the organization. If security controls are insufficient, high volumes of incidents
may occur, which could overwhelm the incident response team. This could lead to slow and
incomplete responses and negative business effects (e.g., extensive damage to computer systems,
periods without computer service, and periods when data are unavailable).

Continuity of Operations Planning

According to NIST SP 800-34, Contingency Planning Guide for Federal Information Systems,
section 2.2, contingency planning represents a broad scope of activities designed to sustain and
recover critical information technology services following an emergency. Contingency planning
for information systems is part of an overall organizational program for achieving continuity of
operations for business operations. Physical security controls and media disposal were also
included in the scope of PwC’s testing in this area.

                                                 8
Three of the twenty-one Medicare contractors had no identified gaps in continuity of operations
planning, while the remaining 18 had 1 to 4 gaps each. In total, PwC identified 35 gaps in this
area. Following are examples of gaps in continuity of operations planning:

    •    The contractor did not arrange for an alternate data processing facility.

    •    The contingency plan was not reviewed, tested, and kept up to date.

    •    Policies and procedures to address all aspects of data sanitization 4 did not exist.

If contingency planning activities are inadequate, even relatively minor interruptions of service
can result in lost or incorrectly processed data, which can cause financial losses, expensive
recovery efforts, and inaccurate or incomplete financial or management information.

RESULTS OF ENTERPRISE DATA CENTER TECHNICAL ASSESSMENTS

The technical assessment reports for the 2 enterprise data centers identified a total of 51 gaps (10
gaps at 1 data center, 41 gaps at the second data center). iFed’s testing included a review of
policies and procedures of the following five NIST control areas:

    1. Access control

    2. Identification and authentication

    3. Physical and environmental protection

    4. Personnel security

    5. System and communication protection

At one enterprise data center, iFed’s testing included a limited penetration test and vulnerability
scans of the data center’s distributed systems and a technical review of its mainframe. At the
other enterprise data center, iFed performed vulnerability scanning and a limited-scope
assessment of the mainframe. The additional testing identified gaps in the security control
category of configuration management.

iFed assigned each of the gaps to one of the security control areas. In a manner similar to that of
PwC, iFed categorized the risks associated with the individual gaps as high, medium, or low
based on the potential impact and likelihood of exploitation. Of the 51 gaps iFed identified
across the 2 enterprise data centers, 8 gaps were high risk, 25 gaps were medium risk, and 18
gaps were low risk. Twenty-seven gaps were resolved and closed during iFed’s onsite visits or
before iFed issued its reports to the data centers, including 7 high-risk gaps, 10 medium-risk
gaps, and 10 low-risk gaps. Hence, a total of 24 gaps at data centers required corrective action in
FY 2010.

4
 Data sanitization is the process of removing data from media so that there is reasonable assurance that the data may
not be easily retrieved and reconstructed.

                                                         9
Table 3 presents the aggregate results reported for the two data centers. Appendix C shows the
number of reported gaps at each data center by security control area.

                     Table 3: Enterprise Data Center Reported Gaps by
           National Institute of Standards and Technology Security Control Area
    Security Control       Total No.    No. of   No. of    No. of     No. of
          Area              of Gaps     Data     High- Medium- Low-Risk
                           Identified Centers     Risk      Risk      Gaps
                                       w/ Gaps    Gaps     Gaps
Access control                26          2        2         16         8
System and                     10            2         3            3          4
communications
protection
Identification and               9           1         3            2          4
authentication
Configuration                    5           2         0            3          2
management
Personnel security              1            1         0           1           0
 Total                         51                      8          25          18

Note: iFed did not report any gaps in the NIST security control area of physical and
environmental protection.

The following sections discuss the three security control areas with the highest number of gaps.

Access Control

According to GAO’s FISCAM, section 3.2, access controls limit or detect inappropriate access to
computer resources (data, equipment, and facilities), thereby protecting them from unauthorized
modification, loss, and disclosure. Such controls include both logical and physical controls.

iFed identified access control gaps at the two enterprise data centers. Following are examples of
gaps in this area:

    •   An excessive number of users had the ability to make changes to sensitive system files.

    •   Users could read sensitive system files that might not have been required by their job
        function.

    •   A remote server had shared directories with sensitive data that unauthorized users could
        read.

Inadequate access controls diminish the reliability of computerized data and increase the risk of
destruction or inappropriate disclosure of data. Gaps in access control create vulnerabilities in
the confidentiality, integrity, and availability of Medicare data and systems. Associated gaps in


                                                 10
the configuration of systems software that controls access to systems can make computers
vulnerable to unauthorized access.

System and Communications Protection

According to NIST SP 800-53, Recommended Security Controls for Federal Information
Systems and Organizations, Control SC-8, the information system should protect the integrity of
transmitted information. Control SC-4 states that “the information system prevents unauthorized
and unintended information transfer via shared system resources.”

iFed identified system and communication protection control gaps at the two data centers.
Following are examples of gaps in this area:

    •    The secure socket layer (i.e., protocol for encrypting information over the Internet)
         certificate used a weak hashing algorithm. 5

    •    Residual CMS data residing in the direct access storage device could have been reused or
         recovered by unauthorized persons (e.g., programmers) after erasure from the operating
         system.

Without adequate system controls, unauthorized users may gain access to sensitive data through
unsecured transmissions or devices that have not been fully protected.

Identification and Authentication

NIST SP 800-53 requires organizations to develop, disseminate, and periodically review or
update identification and authentication policies and procedures. Authentication of an
individual’s identity is a fundamental component of physical and logical access control
processes. The information system should uniquely identify and authenticate computer devices
before establishing a connection to an organization’s network.

iFed reported identification and authentication control gaps at one of the data centers. Following
are examples of gaps in this area:

    •    No process existed for recording, reviewing, or assessing device connection reports.

    •    A Web server was vulnerable to a cross-site scripting attack 6 because of a software flaw.




5
  A hashing algorithm is used with a digital signature to provide assurance of origin authentication and data
integrity.
6
  A cross-site scripting attack occurs when there is a flaw in a Web application that allows an attacker to add content
to a Web site that can be malicious when viewed by other users of the Web site.


                                                          11
These gaps could permit sensitive information on a server to be read by unauthorized
individuals, changed in an unauthorized manner, or accessed from an unauthorized device. This
is a common threat to organizations.

CONCLUSION

The scope of the work and sufficiency of documentation for all reported gaps were sufficient for
the 21 Medicare contractors reviewed by PwC and for one of the two data center technical
assessments performed by iFed. However, at one data center, the test plan documentation did
not contain sufficient evidence that iFed performed all of the testing procedures, nor were we
able to trace all gaps presented in iFed’s reports to supporting documentation. In addition, we
were not able to determine whether iFed included all medium- and high-risk gaps in the report
because of inadequate working paper references in the test scripts. CMS did not ensure that all
iFed working papers were complete for all tests and that all gaps were adequately supported in
the working papers. Gaps that are not identified during a data center technical assessment could
result in unidentified vulnerabilities that could in turn result in unauthorized access to sensitive
Medicare data.

RECOMMENDATION

We recommend that CMS ensure that its enterprise data center technical assessments are
adequately supported.

CENTERS FOR MEDICARE & MEDICAID SERVICES COMMENTS

In written comments to our draft report, CMS concurred with our recommendation. CMS also
stated that it would take the appropriate actions to address the identified issues. We have
included CMS’s comments in their entirety as Appendix D.




                                                 12
APPENDIXES
                                APPENDIX A: LIST OF GAPS BY
                   FEDERAL INFORMATION SECURITY MANAGEMENT ACT OF 2002
                         CONTROL AREA AND MEDICARE CONTRACTOR

                                             Control Areas (With Impact Levels)
                                        Security
                            Policies    Program                                          Incident
                              and          and                  Testing of              Detection,   Continuity
              Periodic     Procedures    System     Security   Information              Reporting,       of
                Risk       To Reduce    Security   Awareness     Security    Remedial      and       Operations
Medicare     Assessments      Risk        Plans     Training     Controls     Actions   Response      Planning    Total
Contractor     (High)        (High)      (High)    (Medium)       (High)      (High)      (High)       (High)     Gaps
    1             1            4             2         0            4            0           3            2       16
    2             1            4             2         0            4            0           3            2       16
    3             0            3             2         0            3            0           3            2       13
    4             0            3             2         0            3            0           3            2       13
    5             0            4             3         1            3            0           3            0       14
    6             0            4             1         0            3            0           3            4       15
    7             0            4             1         2            3            0           1            1       12
    8             0            4             1         2            3            0           1            1       12
    9             0            4             1         2            3            0           1            1       12
   10             1            4             4         2            4            0           2            2       19
   11             1            4             4         0            4            0           2            1       16
   12             0            4             2         2            2            0           2            1       13
   13             0            4             2         2            2            0           2            1       13
   14             0            4             2         2            2            0           2            1       13
   15             1            3             4         1            3            2           1            2       17
   16             1            3             4         1            3            2           1            2       17
   17             1            4             3         2            5            3           2            2       22
   18             0            1             2         2            1            0           0            0        6
   19             0            1             1         3            1            0           0            0        6
   20             1            4             3         2            3            0           2            4       19
   21             1            4             3         2            3            0           2            4       19
  Total           9            74           49         28           62           7          39           35       303

         Note: Impact levels for Federal Information Security Management Act of 2002 (FISMA)
         control areas were derived by PricewaterhouseCoopers by taking the highest value from among
         the subcategories.
                                                                                     Page 1 of 6

     APPENDIX B: RESULTS OF MEDICARE CONTRACTOR EVALUATIONS
     FOR FEDERAL INFORMATION SECURITY MANAGEMENT ACT OF 2002
         CONTROL AREAS WITH THE GREATEST NUMBER OF GAPS

The “impact level” shown in Tables 1 through 5 on the following pages refers to the level of
adverse impact that could result from successful exploitation of a vulnerability in any of the
FISMA control areas. Impact can be described as high, medium, or low in light of the
organization’s mission and criticality and the sensitivity of the systems and data involved.
PricewaterhouseCoopers assigned a rating of high or medium impact to each of the subcategories
in the agreed-upon procedures developed by the Centers for Medicare & Medicaid Services
(CMS). Individual gaps were assigned an overall risk level on a subjective basis by
PricewaterhouseCoopers after considering the impact of the gaps and likelihood of their
occurrence.

Subcategories that were added to testing in FY 2010 are designated by an asterisk.
                                                                                       Page 2 of 6

POLICIES AND PROCEDURES TO REDUCE RISK

The Medicare contractor information security program evaluations assessed seven subcategories
related to policies and procedures to reduce risk. The evaluation reports identified a total of 74
gaps in this FISMA control area.

                   Table 1: Policies and Procedures To Reduce Risk Gaps
                                                       Total No. of Gaps         Subcategory
                       Subcategory                       in This Area            Impact Level
      Documentation exists that outlines reducing
 1    the risk exposure identified in periodic risk             0                    High
      assessments.
      Systems security controls have been tested
      and evaluated. The system/network
 2                                                              2                    High
      boundaries have been subjected to periodic
      reviews/audits.
      All gaps in compliance per CMS’s minimum
      security requirements are identified in the
 3                                                              0                    High
      results of management’s compliance
      checklist.
      Security policies and procedures include
 4    controls to address platform security                    19                    High
      configurations and patch management.
      The latest patches have been installed on
 5*                                                            21                    High
      contractor’s systems.
      Security settings included within internal
 6*   checklists and comply with Defense                       17                    High
      Information Systems Agency standards.
      Malicious software protection has been
      installed on workstations/laptops, is up to
 7*   date, and is operating effectively, and                  15                    High
      administrators are alerted of any malicious
      software identified on workstations/laptops.
       Total                                                   74

* Subcategory added to testing in FY 2010.
                                                                                         Page 3 of 6

TESTING OF INFORMATION SECURITY CONTROLS

The Medicare contractor information security program evaluations covered seven subcategories
related to the testing of information security controls. The evaluation reports identified a total of
62 gaps in this FISMA control area.

                    Table 2: Testing of Information Security Controls Gaps
                                                        Total No. of Gaps           Subcategory
                        Subcategory                       in This Area              Impact Level
     Management reports exist for the review and
     testing of information security policies and
     procedures, including network risk assessments,
1                                                               0                        High
     accreditations and certifications, internal and
     external audits, security reviews, and penetration
     and vulnerability assessments.
     Annual reviews and audits are conducted to
     ensure compliance with FISMA guidance from
     the Office of Management and Budget for
2    reviews of security controls, including logical            5                        High
     and physical security controls, platform
     configuration standards, and patch management
     controls.
     Remedial action is being taken for issues noted in
3                                                               1                        High
     audits.
4    Change control management procedures exist.                5                        High
     Change control procedures are tested by
5                                                              13                        High
     management to verify they are in use.
     Systems are configured according to documented
6*                                                             19                        High
     security configuration checklists.
     Weaknesses are identified by PwC during a
7*                                                             19                        High
     network attack and penetration test.
       Total                                                   62

* Subcategory added to testing in FY 2010.
                                                                                       Page 4 of 6

SECURITY PROGRAM AND SYSTEM SECURITY PLANS

The Medicare contractor information security program evaluations assessed 11 subcategories
related to security program and system security plans. The evaluation reports identified a total of
49 gaps in this FISMA control area.

                Table 3: Security Program and System Security Plan Gaps
                                                      Total No. of
                                                      Gaps in This     Subcategory
                       Subcategory                       Area         Impact Level
  1 A security plan is documented and approved.             0             High
  2 The security plan is kept current.                      7            Medium
    A security management structure has been
  3                                                         0             High
    established.
    Information security responsibilities are clearly
  4                                                         2             High
    assigned.
  5 Owners and users are aware of security policies.        0             High
    Hiring, transfer, termination, and performance
  6                                                         0             High
    policies address security.
  7 Employee background checks are performed.               7            Medium
    Security employees have adequate security
  8                                                         0            Medium
    training and background.
    Management has documented that it
    periodically assesses the appropriateness of
  9 security policies and compliance with them,           18              High
    including testing of security policies and
    procedures.
    Management ensures that corrective actions are
 10                                                         1            Medium
    effectively implemented.
    Hired, transferred, and terminated employees
11* have their access properly added, changed, or         14             Medium
    removed.
      Total                                               49

* Subcategory added to testing in FY 2010.
                                                                                         Page 5 of 6

INCIDENT DETECTION, REPORTING, AND RESPONSE

The Medicare contractor information security program evaluations assessed five subcategories
related to incident detection, reporting, and response. The evaluation reports identified a total of
39 gaps in this FISMA control area.

                               Table 4: Incident Response Gaps
                                                        Total No. of Gaps         Subcategory
                     Subcategory                          in This Area            Impact Level
   Management has a process to monitor systems
 1 and networks for unusual activity or intrusion                 0                    High
   attempts.
   Management has procedures to take and has
 2 taken action in response to unusual activity,                  6                    High
   intrusion attempts, and actual intrusions.
   Management processes and procedures include
 3 reporting of intrusion attempts and intrusions                 0                    High
   in accordance with FISMA guidance.
   Policies, procedures, and security configuration
   checklists related to intrusion detection systems
   within the network are in place, controls
4* comply with documented security                               14                    High
   configuration checklists, and there is a process
   for monitoring intrusion detection system
   alerts.
   Log management procedures have been
   developed and implemented for specific
5*                                                               19                    High
   platforms, and intrusion detection systems have
   been properly placed and configured.
     Total                                                       39

* Subcategory added to testing in FY 2010.
                                                                                        Page 6 of 6

CONTINUITY OF OPERATIONS PLANNING

The Medicare contractor information security program evaluations assessed 14 subcategories
related to continuity of operations planning. The evaluation reports identified a total of 35 gaps
in this FISMA control area.

                       Table 5: Continuity of Operations Planning Gaps
                                                           Total No. of
                                                           Gaps in This           Subcategory
                          Subcategory                         Area                Impact Level
      Critical data and operations are formally identified
 1                                                               0                   Medium
      and prioritized.
      Resources supporting critical operations are
 2                                                               0                   Medium
      identified in contingency plans.
      Emergency processing priorities have been
 3                                                               0                     High
      established.
      Data and program backup procedures have been
 4                                                               3                   Medium
      implemented.
      Adequate environmental controls have been
 5                                                               0                     High
      implemented.
 6    Staff has been trained to respond to emergencies.              3               Medium
      Hardware maintenance, problem management, and
 7    change management procedures exist to help                     2                 High
      prevent unexpected interruptions.
      Policies and procedures for disposal of data and
 8    equipment exist and include applicable Federal                10                 High
      security and privacy requirements.
 9    An up-to-date contingency plan is documented.                  2                 High
      Arrangements have been made for alternate data
 10                                                                  2               Medium
      processing and telecommunications facilities.
 11   The contingency plan is periodically tested.                   2                 High
      Contingency plan test results are analyzed and
 12                                                                  0                 High
      contingency plans adjusted accordingly.
      Physical security controls exist to protect
 13                                                                  0                 High
      information technology resources.
      Media disposal procedures meet requirements
      defined by CMS and the National Institute of
14*                                                                 11               Medium
      Standards and Technology (NIST), and evidence
      of disposal of media exists.
       Total                                                        35

* Subcategory added to testing in FY 2010.
APPENDIX C: LIST OF GAPS BY NATIONAL INSTITUTE OF STANDARDS AND
TECHNOLOGY SECURITY CONTROL AREA AND ENTERPRISE DATA CENTER

                                    Data Center
         NIST Security Control
                 Area                1      2     Total Gaps
         Access control              6      20       26
         System and
         communications
         protection                  2      8        10
         Identification and
         authentication              0      9         9
         Configuration
         management                  2      3         5
         Personnel security          0      1         1
         Physical and
         environmental protection    0      0         0
          Total                     10      41       51
                                                                                                                           Page 1 of2


APPENDIX D: CENTERS FOR MEDICARE & MEDICAID SERVICES COMMENTS


     /-""' ... 

          ~ 	
 (
     ,,-sr           DEPARTMENT OF HEALTH & HUMAN SERVICES                                     Camera lor MeOicar8 & MedicaiO Services


                                                                                               Admi"istrator
                                                                                               Washington, DC 20201




                   DATE:          NOV 1 4 101!

                   TO: 	          Daniel R. Levinson



                   FROM       ~;;~'m
                   SUBJE(..i: 	   Offic~of Inspector General (OIG) Draft Report: " Review of Medicare Contractor
                                  Information Security Program Evaluations for Fiscal Year 2010" (A- lS-12-30100)


                   The Centers for Medicare & Medicaid Services (eM S) would like to thank. OIG for the
                   opportunity to review and comment on the OIG Draft Report referenced above. The objective of
                   this report is to (l) assess the scope and sufficiency of Medicare contractor informatio n security
                   program evaluations and e MS Enterprise Data Center (EOC) technical assessments, and (2)
                   report the results of these evaluations and assess ments.

                   Section H!74 A (e)(2) of Ihe Social Security Act requires that each Medicare contractor have ils
                   information security program be evaluated annually by an independent e ntity. The resultS are
                   then submitted to O IG, which is requ ired to submit an annual report to Congress on the results of
                   these evaluations, including assessments o f the scope and sufficiency of these evaluations. The
                   OIG found that the scope of work and documentation were sufficient for the Medicare
                   contractors and one of the two EDCs. However, there were issues concerning test plan
                   documentation and working IllLper compl etene.~s in perfonning tec hnical assessments alone of
                   the EDCs. CMS is aware of this finding. The corrective action plans have been completed to
                   address them. The OIG recommendation and e MS's response to the recommendat ion are
                   discussed below.

                   OIG Recommendatio n

                   The OIG recommends that CMS teChnical assessment management ensure that its e nterprise data
                   center technical assessme nts are adequately supported.

                   eMS Respo nse

                   The e MS concurs with OIG 's recommendation for this finding.

                   The eMS has implemented various process improvements designed to ensure that EDC technical
                   assessments are adequately supported. The follow ing improveme nts are currently in place:
                                                                                                       Page 2 of2




Page 2 - Daniel R. Levinson

• 	 Test plans have been updated and standardized ac ross a!l lechnical assessment platforms.
    including EDC assessments; and
• 	 EDC contractors responsible fot performing technical assessme nts have been providing
    trai ning covering the tec hnical assessme nt process li nd repo rtin g requi reme nts; lind
• 	 Specific repo rti ng and deliverable requirements were updated in the technical assessme nt
    EOC contrac tor Statement o f Work.

Addit ionally, the contrac tor perfo rmi ng the technical assessments alt he lime of Ihis report has
been replaced. The new contractor has been prov ided specific in~lruc[jons in line with the items
documen ted above to assure thal lechnical assess ments /He appropriately performed.

The eMS would like to thank OIG fo r Ihe opportuni ty to rev iew Knd comment on this draft
repo rt.
